APPENDICES

APPENDIX-A

(

20-5259

Jasper Lee Vick
#139471
Hardeman County Correctional Facility
P.O. Box 549
Whiteville, TN 38075

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Deborah S. Hunt
Clerk

100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: June 25, 2020

Mr. Jasper Lee Vick
Hardeman County Correctional Facility
P.O. Box 549
Whiteville, TN 38075
Re: Case No. 20-5259, Jasper Vick v. R. Smith, et al
Originating Case No.: 2:15-cv-00116
t

Dear Counsel,
The Court issued the enclosed Order today in this case.
Sincerely,
s/Antoinette Macon
Case Manager
Direct Dial No. 513-564-7015
cc: Ms. Pamela Sue Lorch
Mr. John L. Medearis
Mr. Daniel Thomas Swanson
Enclosure

No. 20-5259

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JASPER LEE VICK,
Plaintiff-Appellant,
v.
R. SMITH, et al., in their Individual and Official
Capacities,
Defendants,
and
CLEMENT F. BERNARD, et al., in thenindividual and Official Capacities,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Jun 25, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: COOK, Circuit Judge.

Jasper Lee Vick, a pro se Tennessee prisoner, appeals the district court’s judgment in favor
of the defendants on his First Amendment retaliation claim filed under 42 U.S.C. § 1983. Vick
moves the court to proceed in forma pauperis on appeal.
This court may grant a motion to proceed in forma pauperis if it determines that an appeal
would in fact be taken in good faith and the movant is indigent. See Owens v. Keeling, 461 F.3d
763,776 (6th Cir. 2006). An appeal is not in good faith if it is frivolous and thus “lacks an arguable
basis either in law or in fact.” Neitzke v. Williams, 490 U.S. 319, 325 (1989).
An appeal in this case would be frivolous because Vick failed to adduce evidence from
which a reasonable juror could conclude that the defendants’ allegedly adverse treatment of him
was related to his grievances. See Fed. R. Civ. P. 56(a); Thaddeus-X v. Blatter, 175 F.3d 378, 394
(6th Cir. 1999) (en banc).

No. 20-5259
-2-

There is no non-frivolous argument that the district court erred in denying Vick’s motion
for default judgment against defendants Bernard, Jennings, Linkous, and Combs because he had
not properly served process on these defendants at the time he moved for judgment. See Flint v.
Willett, No. 16-5304,2016 WL 10592241, at *2 (6th Cir. Sept. 12,2016); Thompson v. Am. Home
Assur. Co., 95 F.3d 429,432-33 (6th Cir. 1996).
Finally, there is no non-frivolous argument that the district court erred in dismissing
defendant Riegal from the case without prejudice pursuant to Federal Rule of Civil Procedure 4(m)
because Vick failed to effect service of process on Riegal within ninety days of filing the
complaint.
Accordingly, the court DENIES Vick’s motion to proceed in forma pauperis. Unless Vick
pays the $505 filing fee to the district court within thirty days of the entry of this order, this appeal
will be dismissed for want of prosecution.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
*

JASPER LEE VICK,

*

Appellant/Plaintiff,

*
*

No. 20-5259

*

Civil Case: 2:15-116-JRG-MCLC

vs.

R. SMITH, et al.,
Appellees/Defendants.

(asm)

*
*

***********************************************************************************

MOTION TO CORRECT CLERICAL ERROR1
IN APPELLANT'S RESPONSE TO ORDER FILED JUNE 25, 2020

Comes now Appellant/Plaintiff Jasper Lee Vick, (TDOC #139471), acting pro se, [unlearned in
law], without waiving any substantial right or issues presented for appeal, would submit a response to
the Order filed June 25, 2020, in the above style cause as follows:
The Appellant, upon filing a timely Notice of Appeal, with the Court on February 24, 2020.
On March 23, 2020, Appellant Vick, returned to the Court “Motion for Pauper Status”
“Affidavit Accompanying Motion for Permission to Appeal in forma Pauperis” with attached “Prison
Trust Fund Affidavit.”
Further in response to the Order filed June 25, 2020, the Appellant asserts the following:
1.
1

The District Court incorrectly decided the facts and misapplied part three of the Sixth

Clerical Error is lacated at ^ #4,1 - IV, see f#4,1 - IV for the clerical error of what ^[#4,1 - IV now reads and what ^[#4,1
- IV should read. (No attachments are included, as no error existed.)

1

Circuit retaliation claim, causation, the third element. The third element is satisfied if “the adverse
action was motivated at least in part by the Plaintiffs protected conduct.” The District Court improperly
shifts the burden of proof to the Appellant Vick, in its Order Doc 159. The District Court states: (In
part):
“The Centurion Defendants, for the purpose of the motion for summary judgment, do not
dispute the events that took place on August 18, 2014. In fact, Dr. Bernard does not
dispute that he had a conversation with Plaintiff about the smart remark and threatened
time in medical segregation ... The Centurion Defendants, for the purpose of this motion,
concede that Plaintiff satisfied the first two elements. [Doc. 131, PagelD 1059]. But they
argue that Plaintiff cannot establish the third element when viewing the evidence in the
light most favorable to Plaintiff, entitling them to summary judgment.” [Doc. 159].
Appellant/Plaintiff is entitled to summary judgment as a matter of law, because
Appellant/Plaintiff established that his protected conduct was a motivation factor behind any harm:
First: The Appellant/Plaintiff assert that this Court held: (In part):
“[SJince there is no justification for harassing people for exercising their constitutional
rights [the deterrent effect] need not be great in order to be actionable.” Brown v. Crowley;
Thaddeus-X, 175 F.3d 782, 789 (6th Cir. 2002).
Appellant/Plaintiff is retaliated against due to oral and written grievances [Doc. 1, 15-16].
On August 18, 2014, there were no valid reason, or a legitimate governmental objective for
Appellant/Plaintiff Vick's placement in medical segregation by Appellees/Defendants, et .al., because
Appellant/Plaintiff had his annual physical exam on or about July 10, 2014, Appellees/Defendants did
not follow TN CORRECTION-TDOC INFIRMARY PROTOCOL-POLICY AND PROCEDURE. VI
(A), (B), prior to Appellant's/Plaintiffs placement in medical segregation which clearly states:
VI (A) “The LPN, RN, NP, or PA will perform initial assessment of the injured/ill inmate
to determine if infirmary care is appropriate. The assessment will be documented in the medical
record”; and
VI (B) clearly states: “Upon completion of the initial assessment the LPN, RN, NP, or PA
will contact the physician with the assessment result to obtain admission orders.” [See Exhibit E].2
2

See Memorandum of Law in Support of Motion for Summary Judgment Exhibit(s) A thru J, were contemporaneously
file with the District Court (excerpts) from Defendants discovery.

2

This medical segregation placement followed oral and written grievance(s). [Doc. 1, fifth cause
of action 15-16], and according to Georgia Crowell TDOC Health Administrator, she states:
“Mr. Vick is a chronic care patient and seen every three months by health care provider.
The most recent chronic care appointment was 7/14/14, at which time, he received his
annual physical exam. Blood sugar are monitored and lab work done on a regular basis.
All diabetics are followed closely and the doctor uses his medical judgment in treating all
patients. Inmates have a responsibility to actively take part in their care, treatment plan
and compliance.” [Doc 1, Exhibit - #2; Exhibit - #3 at Exhibit - #1].”
Appellant's/Plaintiffs next chronic care appointment would follow ninety (90) days, on or
about, October 14, 2014, [Doc. 1, Exhibit - #2; Exhibit - #3, at Exhibit - #1], Appellant's/Plaintiffs
medical segregation placement was punitive and without a legitimate governmental objective or a just
cause. [Doc. 1, at 17].
The TDOC Health Administrator Georgia Crowell further States:
“Medical decisions and treatment is not and should never be ordered a a punishment or
retaliation.... Our goal is to provide the correct and best treatment for all inmates
assigned at NECX. To assure we all have the same understanding this has been addressed
with medical staff. Georgia Crowell ” [Doc. 1, at 12].
2.

The District Court misapplied the law under Brown and Thelen, to Appellant Vick's

retaliation claim, under causation, the third element. In Maben v. Thelen, this Court held: (In part):
“Under the third element, “[ujsually, the question of causation is a factual issue to be
resolved by a jury, and may be satisfied by circumstantial evidence.” Harris v. Bornhost,
513 F.3d503, 519-20 (6th Cir. 2008) (citing Hartsel v. Keys, 87 F.3d 795,803 (6,h Cir. 1996)).
“Nonetheless, a court may grant summary judgment even in a causation inquiry, where it
is warranted.” Hartsel, 87 F.3d at 803 (citing Langford v. Lane, 921 F.2d 677, 683-84 (6th
Cir. 1991)). “Once the plaintiff has met his burden of establishing that his protected
conduct was a motivating factor behind any harm, the burden of production shifts to the
defendant.” Thaddeus-X, 175 F.3d at 399 (citing Mount Healthy, 429 U.S. 274, 97 S.Ct.
568, 50 L.Ed.2d 471). “If the defendant can show that he would have taken the same
action in the absence of the protected activity, he is entitled to prevail on summary
judgment.” Id.” MABEN v. THELEN. 887 F.3D 252, (6th Cir. 2018).
Second: Documentation in Appellant's Memorandum of Law in Support of Motion for
Summary Judgment [Exhibit - B] contemporaneously filed with the District Court. On August 18,
2014, Appellees/Defendants, et al., while acting under color of state law with deliberate indifference to
3

Appellant s Constitutional right First, and Fourteenth Amendments acted in concert together with one
another to violate those rights, and retaliated against Appellant/Plaintiff to cause actual imminent
irreparable harm, or possible death, and ignored Appellant's medical records/files and medical facts,
communications in response to Appellant's/PlaintifFs oral and written grievances for redress [Doc. 1,
15-16], and changed Appellant's insulin intake to oral medication, specifically, the drug metformin and
were with, and or had advance knowledge, notice, or warning, or information sufficient, that the drug
metformin may cause imminent physical harm to Appellant. [Doc. 1, at 15-16].
Appellant's/PlaintifFs medical records/files and medical facts, communications clearly states:
(In part): “August 14, 2012, Doctor's Order: “Will D/C3 metformin not controlling BS will start
Levemir August 20, 2012,... “Pt. Also will be notified to quit metformin. Hb A1C 16.7 7/30/12.”
[See Memo of Law Exhibit - B], contemporaneously filed with the District Court.
Third: In response to Appellant's/PlaintifFs grievance(s) for a redress, Appellees/Defendants, et.
al., [Exhibit - D, MEMO of Law], (contemporaneously filed with the District Court), took the
following deterrent actions to: [“Discontinue BS checks and all insulin.4... No KOP.”]
Appellee/Defendant deterrent acts goes as far as, to not give any information to
Appellant/Plaintiff “with regard to medication given or future lab studies” [“8/20/14 I/M is not to be
given any information WRT5 meds given or future lab studies”], Security is to be called at the
first sign of I/M becoming argumentative, overly demanding.6 HgAlC in 3mo 11-1914, I/M is not
3 August 14, 2012 Doctor's Orders D/C (Discontinue) metformin not controlling BS (Blood Sugar) will start Levemir
(insulin) August 20,2012, Pt.(Patient) Also will be notified to quit metformin. Hb A1C 16.7 7/30/12.
4 Plaintiff is a Type II diabetic and can not survive without some form of insulin, that does not contain the drug
metformin. To place-Appellant/Plaintiff in medical segregation and discontinue Blood Sugar (BS) checks, and all insulin,
served no governmental objective, Defendants, et al., disregarded a substantial risk of ham, that could resulted in unduly
death of the Appellant/Plaintiff, and is equivalent to a death sentence.
5 "8/20/14 IM is not to be given any information "WRT" (with regard to) meds given or future lab studues." According to
Health Administrator Georgia Crowell "Inmates have a responsibility to actively take part in their care, treatment plan
and compliance."
6 Security is to be called at the first sign of I/M becoming argumentative, or overly demanding." Defendants, et al., did not
respond reasonably to Appellant's/PlaintifFs serious medical need (i.e., Type II, diabetes), and in retaliation, were with,
and or had advance knowledge, notice, or warning, or information sufficient that Appellant/Plaintiff was "notified to
quit metformin" and that "prolonged uncontrolled high blood sugar and low blood sugar, can among other things

4

to be given any form of insulin unless approved by Dr. Bernard. All meds are D/C; No KOP.7 C.
Bernard 8/20/14, Discontinue BS checks and all insulin VORB Dr. Bernard | Stephanie Carmody
Noted 8/20/14 @ 1730 Stephanie Carmody"].
The Appellant/Plaintiff is a Type II diabetic, cannot survive without some form of insulin.
[Exhibit - D], (contemporaneously filed with the District Court).
The Appellant/Plaintiff placement in medical segregation August 18, 2014, followed his
protected conduct for a redress of grievance of inadequate medical care of placing diabetics in medical
segregation whose blood sugar went over 250-350 points. [Doc. 1, 12-15; Exhibit - #5]. Thus the
motivating factor behind any harm to deter Appellant/Plaintiff from continuing in his protected
conduct.
In Adams v Baker, (6th Cir. 2019) this Court held: (In part):
"The third element of a First-Amendment retaliation claim "addresses whether the
defendants' subjective motivation for taking the adverse action was at least in part to
retaliate against the [plaintiff] for engaging in protected conduct." Hill, 630 F.3d at 475;
Smith, 250 F.3d at 1037. "[A]n act taken in retaliation for the exercise of a constitutionally
protected right is actionable under C 1983 even if the act, when taken for a different
reason, would have been proper." Bloch v. Ribar, 156 F.3d 673, 681-82 (6th Cir. 1998).
"Because the question is whether the adverse action was taken (at least in part) because of
the protected conduct, the causation inquiry centers on the defendant's motive." Thomas,
481 F.3d at 441. Because "[m]otive is often very difficult to prove with direct evidence in
retaliation cases ...[,] circumstantial evidence may therefore acceptably be the only
means of establishing the connection between a defendant's actions and the plaintiffs
protected conduct." King, 680 F.3d at 696. Allegations{2019 U.S. Dist. LEXIS
32} supporting the existence of a retaliatory motive can include "the disparate treatment
of similarly situated individuals or the temporal proximity between the [plaintiffs]
conduct and the official's adverse action." Hill, 630 F.3d at 475. In some cases, "temporal
proximity alone may be significant enough to constitute indirect evidence of a causal
connection so as to create an inference of retaliatory motive." Muhammad v. Close, 379
F.3d 413, 417-18 (6th Cir. 2004)."

result in change in mental status, ketoacidosis, and can affect brain and kidney function" and possible death. [See
Exhibit I], notwithstanding the fact that every diabetic, or any patient have an absolute right to be informed "WRT" meds
taken and especially Lab Reports as a diabetic Condition.
7 "KOP" (Keep on Person) medication. In 2010, the Appellant/Plaintiff was prescribed KOP medication and forewarned
of the deadly consequences if not taken as prescribed.

5

Defendants, et al.,/Appellees, et al., did not respond reasonably to Appellant's/Plaintiffs
grievances, or serious medical need (i.e., Type II, diabetes), and intentionally denied, delayed, and
intentionally interfered with Appellant's/Plaintiffs medical treatment, acted in concert together with one
another and in retaliation, were with, and or had advance knowledge, notice, or warning, or information
sufficient, that their actions and inaction were illegal and that prolonged uncontrolled high blood sugar
and low blood sugar, can among other things result in “change in mental status, ketoacidosis, and can
affect brain and kidney function and possible death.” [See Exhibit-I (Interrogatory No. 12)]:
INTERROGATORY NO. 12:” As a contract employee and/or State employee, medical
professional, do you know the effect of prolonged high blood-glucose/hyperglycemia and the
effect of low blood-glucose/hypoglycemia? If so, explain their effect(s).”
RESPONSE: “Dr. Bernard objects to this Interrogatory on the grounds that it is not
relevant to the claims and defenses in this matter and is overly broad and burdensome in
that it is not proportional to the needs of the case. Subject to and without waiving these
objections, Dr. Bernard states that uncontrolled high-blood glucose and low-blood glucose
can, among other things, result in a change in mental status, ketoacidosis, and can affect
brain and kidney function. Dr. Bernard further states that any uncontrolled high or lowblood glucose that Plaintiff suffered was the result of his non-compliance with his
treatment plan and was not the result of his treatment plan.” [Exhibit -1].
However, the TDOC Health administrator Georgia Crowell states:
“Inmates have a responsibility to actively take part in their care, treatment plan and
compliance.” [Doc 1, Exhibit - #2]. which was denied to the Appellant/Plaintiff, see [Exhibit
D; note 4 above]
Appellant/Plaintiff and all diabetics should always be provided information “with regard to”
medications taken, lab studies, and their overall treatment and plan, to avoid future diabetic
complications that can among other things result in change in mental status, ketoacidosis, and can
affect brain and kidney function and possible death.
On August 20, 2014, Dr. Bernard issued an order to his medical staff that: “8/20/14 Security is
to be called at the first sign of I/M becoming argumentative, overly demanding.” [Exhibit - D].
However, Appellant/Plaintiff sought mental health care, see [Exhibit - G], instead of “becoming

6

argumentative, overly demanding” to try and adjust to the retaliatory deprivation of adequate
medical care for filing grievance.
Because the question is whether the adverse action was taken (at least in part) because of the
protected conduct, the causation inquiry centers on the defendant's motive.
On August 18, 2014, there were no valid reason, or a legitimate governmental objective for
Appellant/Plaintiff Vick's placement in medical segregation by Appellees/Defendants, et .al., because
Appellant/Plaintiff Vick is a chronic care patient and seen every three months by health care provider.
The most recent chronic care appointment was July 14, 2014, at which time, he received his annual
physical exam[Doc. 1, Exhibit - #2], and the next exam would be in October 2014;
August 18, 2014, Appellees/Defendants did not follow TN CORRECTION-TDOC
INFIRMARY PROTOCOL-POLICY AND PROCEDURE. VI (A), (B), prior to Appellant's/Plaintiff s
placement in medical segregation [Exhibit - E]; and
Appellees/Defendants were with, and or had advance knowledge, notice, or warning, or
information sufficient that Appellant's/Plaintiffs previously prescribed plan of treatment prohibited the
taking of the drug metformin, Appellant/Plaintiff is a Type II diabetic and can not survive without
some form of insulin, that does not contain the drug metformin.[See note 2 above],
3.

Appellant/Plaintiff feel that the District Court's judgment was wrong:

The Appellees/Defendants present the bare assertion that Appellant/Plaintiff “was artificially
inflating his blood sugar through non-compliance with his medical plan and diabetic diet.” [Doc.
159, 13], Appellees/Defendants offer no documentation proof, of Appellant' s/Plaintiff s “noncompliance with his medical plan and diabetic diet” prior to August 20, 2014.
The deterrent of Constitutional right by Appellee/Defendant, the Appellant/Plaintiff was being
forced to take the deadly drug metformin, because of his oral and written grievances for a redress [Doc.
1, 15-16], and being placed in medical segregation without food, or a way to call for, or get help in the
7

event of an emergency, thus having no way of “artificially inflating his blood sugar through noncompliance with his medical plan and diabetic diet.” [Doc. 159, 13].
The Appellant/Plaintiff took the drug metformin8 as prescribed by Dr. Bernard and became ill,
mentally challenged, and physically ill with diabetic complications from the retaliatory acts. [Doc. 1, at
14-17],
It is undisputed fact that protected conduct, of grievance filed by the Appellant/Plaintiff for
deprivation of adequate medical care, was the motivating factor behind any harm mention herein.
Appellee/Defendants should not be granted summary judgment.
This Court reviews a district court's grant of summary judgment de novo. Gillis, 845 F.3d at
683. Summary judgment is proper “if the Movant shows that there is no genuine dispute as to any
material fact and the Movant is entitled to judgment as a matter of law. Fed. R. Civ. P. 56(a).” Maben
v. Thelen. 887 F.3d 252 (6th Cir. 2018).
Appellees/Defendants have not meet their burden of proof, and the Appellant is entitled to
summary judgment as a matter of law, and request that the case be Remanded for trial.
In response to the Court Order “The Court DENIES Vick's motion to proceed in forma
pauperis. Unless Vick pays the $505 filing fee to the district court within thirty days of the entry
of this order, this appeal will be dismissed for want of prosecution.” Vick assert that, this Court
held: (In part):
In Clifton v. Carpenter, “to bar plaintiff from initiating an application for leave to appeal from
the original complaint... filed in the court would violate the Equal Protection Clause of the Fourteenth
Amendment” See Smith v. Bennett, 365 U.S. 708, 81 S.Ct. 895, 6 L.Ed.2d 39 (1961).
This Court further states:
8

See note 2 above. Appellees/Defendants were with, and or had advance knowledge, notice, or warning, or information
sufficient that Appellant's/Plaintiffs previously prescribed plan of treatment prohibited the taking of the drug metformin:
August 14, 2012, Doctor's Order: “Will D/C metformin not controlling BS will start Levemir August 20,2012,...
“Pt. Also will be notified to quit metformin. Hb A1C 16.7 7/30/12.”

8

“The Supreme Court has long held that procedures which limit an indigent defendant's access to
the courts, where that limitation could result in a deprivation of liberty, are constitutionally deficient...
Destitute defendants must be afforded as adequate appellate review as defendants who have money ...
Access to the courts cannot be contingent on wealth. Griffin and its progeny clearly provide that
indigent defendants, whose liberty is on the line, cannot receive less process because of their pauper
status. Smith makes it clear that these protections even apply in collateral proceedings. The Supremacy
Clause forbids ... a rule to trump the fundamental requirements of the United States Constitution. U.S.
Const. Art. VI, cl. 2. Doan, 237 F.3d at 728” See Clifton v. Carpenter. 775 F.3d 760 (6th 2014).
The Appellant is prepared to pay the initial partial filing fee of twenty percent of the greater of
the average monthly (1) deposit to the inmate's trust account, or (2) balance in the account for the sixmonth period preceding the filing, until the filing fee is paid in full.
(THIS PARAGRAPH #4,1 - IV IN ERROR NOW READS)
4.

The Appellant/Plaintiff wish to present the following issues for appeal:
I. Whether there is a temporal proximity between Plaintiffs protected conduct and
the Sixth Amendment retaliation act of placement in medical segregation.
II. Whether Appellant/Plaintiff satisfied the Sixth Circuit third element of causation
in his Sixth Amendment retaliation claim.
III. Whether Appellant/Plaintiff is entitled to default judgment against Defendants
Linkous, Combs, Bernard and Jennings.
IV. Whether the District Court improperly dismissed Defendant Riegal, and
manipulated the rules to favor the Defendants.
(PARAGRAPH #4,1 - IV SHOULD READ AS FOLLOWS):

4.

The Appellant/Plaintiff wish to present the following issues for appeal:
I.

Whether there is a temporal proximity between Plaintiffs protected
9

conduct under the First Amendment and the Sixth Circuit's, third element
(causation) retaliation act of Appellant Vick's placement in medical
segregation.
II.

Whether Appellant/Plaintiff satisfied the Sixth Circuit third element of
causation in his First Amendment retaliation claim.

III.

Whether Appellant/Plaintiff is entitled to default judgment against
Defendants Linkous, Combs, Bernard and Jennings.

IV.

Whether the District Court improperly dismissed Defendant Riegal, and
manipulated the Federal Federal Rules of Civil Procedure to favor the
Defendants.

5.

The Appellant/Plaintiff request the Court of Appeals to grant the following:
i).

Remand the Case to the District Court for further proceedings.

ii).

Remand the case for jury to resolve the issue of causation.

iii).

Remand the case with specific instruction consistent with this Court's Opinion.

iv).

Allow Appellant/Plaintiff to proceed in forma pauperis.

v) .

Appellant/Plaintiff request that this Court to not hold the Appellant/Plaintiff to
the standard of a trained attorney, but a layperson, and grant just and appropriate
relief as the law and justice demand. REMAND for trial.

Respectfully submitted, this September 11, 2020.
Respectfully submitted,

Jasper Lee Vick, #139471
$520 Union Springs Road
Whiteville, TN 38075
X.c.: F. #20-057
Rev err. X.c.: FI. #20-080
10

CERTIFICATE OF SERVICE
I hereby (certify, verify or state) under the penalty of perjury that a true and exact copy of the
“MOTION TO CORRECT CLERICAL ERROR IN APPELLANT'S RESPONSE TO ORDER
FILED JUNE 25,2020 ” has been given to prison authorities this September 11, 2020, to be forwarded
to:

STATE OF TENNESSEE
Pamela Lorch
PO BOX 20207
NASHVILLE, TN 37202

LONDON AND AMBURN, PC
607 MARKET STREET
SUITE 900
KNOXVILLE, TN 37902

via prepaid first class U.S. Postage this September 11, 2020.

1

11

Jasper Vick

APPENDIX - B

20-5259

Jasper Lee Vick
#139471
Hardeman County Correctional Facility
P.O. Box 549
Whiteville, TN 38075

No. 20-5259

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JASPER LEE VICK,
Plaintiff-Appellant,
v.

R. SMITH, et al., in their Individual and Official
Capacities,
Defendants,
and
CLEMENT F. BERNARD, et al., in their
Individual and Official Capacities,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Aug 26, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: ROGERS, NALBANDIAN, and MURPHY, Circuit Judges.
Jasper Lee Vick, a pro se Tennessee prisoner, moves the court to reconsider its order of
June 25, 2020, denying his motion to proceed in forma pauperis on appeal.
Vick has not shown that the court overlooked or misapprehended a point of law or fact in
denying him leave to proceed in forma pauperis. See Fed. R. App. P. 40(a)(2).
Accordingly, we DENY his motion for reconsideration.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Deborah S. Hunt
Clerk

100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Filed: August 26, 2020

Ms. Pamela Sue Lorch
Office of the Attorney General
of Tennessee
P.O. Box 20207
Nashville, TN 37202-0207
Mr. Daniel Thomas Swanson
London Amburn
607 Market Street
Suite 900
Knoxville, TN 37902
Mr. Jasper Lee Vick
Hardeman County Correctional Facility
P.O. Box 549
Whiteville, TN 38075
Re: Case No. 20-5259, Jasper Vick v. R. Smith, et al
Originating Case No.: 2:15-cv-00116
Dear Mr. Vick and Counsel,
The Court issued the enclosed Order today in this case.
Sincerely,
s/Antoinette Macon
Case Manager
Direct Dial No. 513-564-7015
Enclosure

Tel. (513) 564-7000
www.ca6.uscourts.gov

20-5259

l

Jasper Lee Vick
#139471
Hardeman County Correctional Facility
P.O. Box 549
Whiteville, TN 38075

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: March 09,2020

Jasper Lee Vick
Hardeman County Correctional Facility
P.O. Box 549
Whiteville, TN 38075
Re: Case No. 20-5259, Jasper Vick v. R. Smith, et al
Originating Case No.: 2:I5-cv-00116
Dear Mr. Vick,
This appeal has been docketed as case number 20-5259 with the caption that is enclosed on a
separate page. The appellate case number and caption must appear on all filings submitted to the
Court.
This court must determine the appellate fee status of each new appeal. The district court's
grant of pauper status at the beginning of the case does not automatically carry over to the
appeal. A new determination is necessary.
The district court has certified that an appeal would not be taken in good faith and/or denied
you leave to proceed on appeal in forma pauperis. As the appellant, you are responsible for
paying the $505.00 filing fee for this appeal. If you cannot pay the fee in one lump sum, you
may file a motion for pauper status. You have until April 8,2020 to either pay the $505.00
appellate filing fee to the U.S. District Court, or complete and return the enclosed motion for
leave to proceed on appeal in forma pauperis, along with a financial affidavit and six-month
prison trust account statement with the United States Court of Appeals for the Sixth
Circuit. Failure to do one or the other may result in the dismissal of the appeal without
further notice.
At this stage of the appeal, appellee should complete and file the following forms with the
Clerk's office by March 23, 2020. More specific instructions are printed on each form.
Appellee:

Appearance of Counsel
Application for Admission to 6th Circuit Bar (if applicable)

Appellee counsel will docket pleadings as an ECF filer. Before preparing any documents to
be filed, counsel are strongly encouraged to read the Sixth Circuit Rules at
www.ca6.uscourts.gov. If counsel has not established a PACER account and registered with this
court as an ECF filer, you should do so immediately.
The Clerk’s office cannot give pro se litigants legal advice but questions about the forms or
electronic case filing may be directed to the case manager.
Sincerely,
s/Antoinette Macon
Case Manager
Direct Dial No. 513-564-7015
cc: Ms. Pamela Sue Lorch
Mr. Daniel Thomas Swanson
Enclosure

OFFICIAL COURT OF APPEALS CAPTION FOR 20-5259

JASPER LEE VICK
Plaintiff - Appellant
v.
R. SMITH, et al, in their Individual and Official Capacities
Defendant
and
CLEMENT F. BERNARD; ANGELA COMBS; BETH JENNINGS; N. RIEGAL; L. FARET;
STEPHANIE CARMADY; NATALIE LINKINS, in their Individual and Official Capacities
Defendants - Appellees

!

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JASPER LEE VICK

V.

Case No:

20-5259

(asm)

R. SMITH, ET AL

MOTION FOR PAUPER STATUS
I move to waive the payment of the appellate filing fee under Fed. R. App. P. 24 because I am a
pauper. This motion is supported by the attached financial affidavit.
The issues which I wish to raise on appeal are:
i

I.

Whether there is a temporal proximity between Plaintiff's protected conduct and the
Sixth Amendment retaliation act of placement in medical segregation.

I. Whether Plaintiff satisfied the Sixth Circuit third element of causation in his Sixth Amendment
retaliation claim.
III. Whether Plaintiff is entitled to default judgment against Defendants Linkous, Combs, Bernard.
and Jennings.
IV. Whether the District Court improperly dismissed Defendant Riegal, and manipulated the Rules to favor the
Defendants.

Signed:

Date: March 23, 2020

Address: 1/2520 Union Springs Road
Whiteville, Tennessee 38075

X.c.: FI. #20-025

United States Court of Appeals
FORM 4 - AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO APPEAL IN FORMA PAUPERIS
Updated: December 2018

Page 1

form 4.

AFFIDAVIT ACCOMPANYING MOTION FOR
PERMISSION TO APPEAL IN FORMA PAUPERIS
United States Court of Appeals
for the Sixth Circuit

JASPER LEE VICK

]

1
V.

]

Case No:

20-5259

(asm)

R. SMITH, ET AL

]
]

i

Affidavit in Support of Motion

Instructions

1 swear or affirm under penalty of perjury that,
because of my poverty, I cannot prepay the
docket fees of my appeal or post a bond for
them. I believe I am entitled to redress. I swear
or affirm under penally of perjury under
United States laws that my answers on this
form are true and correct. (28 U.S.C. §§ 1746:
18 U.S.C. §§ 1621.)

Complete all questions in this application and
then sign it. Do not leave any blanks: if the
answer to a question is "0," "none," or "not
applicable (N/A)," write that response. If you
need more space to answer a question or to
explain your answer, attach a separate sheet of
paper identified with your name, your case!s
docket number, and the question number.

Signed:

Date: March 23. 2020
X.c.: FI. #20-025

My issues on appeal are:
I.

Whether there is a temporal proximity between Plaintiff's protected conduct and
the Sixth Amendment retaliation act of placement in medical segregation.

II. Whether Plaintiff satisfied the Sixth Circuit third element of causation in his Sixth
Amendment retaliation claim.
III. Whether Plaintiff is entitled to default judgment against Defendants Linkous,
Combs, Bernard, and Jennings.
IV. Whether the District Court improperly dismissed Defendant Riegal, and
manipulated the Rules to favor the Defendants.

United States Court of Appeals
FORM 4 AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO APPEAL IN FORMA PAUPERIS
Updated: December 2018

Page 2

I. For both you and your spouse estimate the average amount of money received from each of the
tallowing sources during the past 12 months. Adjust any amount that was received weekly,
biweekly, quarterly, semiannually, or annually to show the monthly rate. Use gross amounts, that
is, amounts before any deductions for taxes of otherwise.
Average monthly
amount during
the past 12 months

Income source

You

Spouse

N/A

N/A

N/A

Self-employment

N/A

N/A

N/A

N/A

Income from real property
(such as rental income)

N/A

N/A

N/A

N/A

N/A
N/A

N/A
N/A

N/A
N/A

N/A
N/A

Child support

N/A
N/A

N/A
N/A

N/A
N/A

N/A
N/A

Retirement (such as social security,
pensions, annuities, insurance)

N/A

N/A

N/A

N/A

N/A
N/A
N/A

N/A
N/A
N/A

N/A
N/A
N/A

N/A
N/A
N/A

N/A

N/A

N/A

N/A

$ 0.00

$ 0.00

Alimony

Disability (such as social
security, insurance payments)
Unemployment payments
Public-assistance (such as welfare)
;

You

N/A

Gifts

i

Spouse

Employment

Interest and dividends

!
i

Amount expected
next month

Other (specify):

N/A

Total monthly income:

$ 0.00

$ 0.00

2, List your employment history for the past two years, most recent employer first. (Gross monthly
pay is before taxes or other deductions.)
Employer
Address
Dates of Employment
Gross
monthly pay

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

United States Court of Appeals
FORM 4 AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO APPEAL IN FORMA PAUPERIS
Updated: December 2018

Page 3

i

3. List your spouse's employment history for the past two years, most recent employer first. (Gross
monthly pay is before taxes or other deductions.)
Employer

Address

Dates of Employment

Gross
Monthly Pay

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

4.

How much cash do you and your spouse have? $ N/A_______________

Below, state any money you or your spouse have in bank accounts or in any other financial
institution.
Financial Institution

Type of Account

Amount You
Have

Amount
Your Spouse Has

I

Ll/A

jm

N/A

N/A

M/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

i

!

i

i

If you are a prisoner seeking to appeal a judgment in a civil action or proceeding, you must attach
a statement certified by the appropriate institutional officer showing all receipts, expenditures, and
balances during the last six months in your institutional accounts. If you have multiple accounts,
perhaps because you have been in multiple institutions, attach one certified statement of each
account.
5. List the assets, and their values, which you own or your spouse owns. Do not list clothing and
ordinary household furnishings.
Home (Value)

Other real estate (Value)

Motor Vehicle #1 (Value)

NONE

NONE

Make & year: NONE

NONE

NONE

Model;

NONE

NONE

NONE

Registration #;

NONE

Motor Vehicle #2 (Value)

Other assets (Value)

Other assets (Value)

Make*year: NONE

NONE

NONE

Model:

NONE

NONE

NONE

Registration #: M/A

NONF

NONE

United States Court of Appeals
FORM 4 AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO APPEAL IN FORMA PAUPERIS
Updated: December 2018

Page 4

I
I

6. State every person, business, or organization owing you or your spouse money, and the amount
owed.
Amount owed
to you

Person owing you or your spouse money

Amount owed
to your spouse

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

N/A

7. State the persons who rely on you or your spouse for support.
Name

Relationship

N/A

f

Age
N/A

N/A

N/A

N/A

N/A

-N/A-

UfA

■N/A.

WAT

N/A

■N/A-

N/A

N/A

N7A

N/A

N/A

United States Court of Appeals
FORM 4 AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO APPEAL IN FORMA PAUPERIS
Updated: December 2018

N/A

Page 5

;
;

8. Estimate the average monthly expenses ofyou and your family. Show separately the amounts
paid by your spouse. Adjust any payments that are raade weekly, biweekly, quarterly, semiannually
or annually to show the monthly rate.
You
Rent er home-mortgage payment
(including lot rented for mobile home)
Are real estate taxes included? DYes
Is property insurance included? DYes

0

Home maintenance (repairs and upkeep)
Food

i

0

0

0

0

A

A

Clothing

0

0

Laundry and dry-cleaning

0

0

Medical and dental expenses

0

0

Transportation (not including motor vehicle expenses)

XL

A

Recreation, entertainment, newspapers, magazines, etc.

0

0

Insurance (not deduced from wages or included in mortgage payments)
Homeowner's or renter’s

0

0

Life

0

0

Health
i

0

0No
[kjNo

Utilities (electricity, heating fuel, water, sewer, and telephone)

!
!

Your
Spouse

A

XL

Motor vehicle

A

0

Other:

0

0

Taxes (not ded.uolgAfi:ojxijaiagcsj3rJneluded.iu.mortgageLpaymeWfi
specify:
N/A

0

0

Installment payments

A

A

Motor Vehicle

A

A

0

0

A

A

0

0

Alimony, maintenance, and support paid to others

0

0

Regular expenses for operation of business, profession, or farm (attach
detail)

0

0

Credit card (name):

N/A

Department store (name): N/A
Other: N/A

Other (specify):

N/A

Total monthly expenses:

A

A

$ 0.00

$ 0.00

United States Court of Appeals
FORM 4 AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO APPEAL IN FORMA PAUPERIS
Updated: December 2018

Page 6

LiMJTurhrtheSnTmorthT “ y°"r m°”thly inC°me OT eXpenSes or ” your assets or
| [ Yes

{v^Nq

If yes, describe on an attached sheet.

10. Uds1awstut?nt °r ^ y°U ^ spending any money for exPenses or attorney fees in connection
with

□ yes jVjNo
appea[°Vide ^

If yes, how much? $

'n^ormadon t^iat

help explain why you cannot pay the docket fees for your

I have been incarcerated since 2002. (See the attached "PRISON TRUST FUND AFFIDAVIT”).

:

12. State the address of your legal residence.

I have no current legal address.

Your daytime phone number:
Your age:

(

)

NONE
Your years of schooling:

United States Court of Appeals
FORM 4 AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO APPEAL IN FORMA PAUPERIS
Updated: December 2018

OFD

Page 7

CORE CIVIC
HARDEMAN COUNTY CORRECTIONAL FACILITY
2520 UNION SPRINGS ROAD
(POST OFFICE BOX 549)
WHITEVILLE, TENNESSEE 38075

PRISON TRUST FUND AFFIDAVIT
INMATE NAME: Jasper Lee Vick
TDOC NUMBER: 139471
NOTICE TO PRISONER: A prisoner seeking to proceed IFP (In forma Pauperis) shall
submit an affidavit stating all assests. In addition, a prisoner must attach a statement certified
by the appropriate institutional officer showing all receipts, expenditures, and balances during
the last six months in your institutional accounts.
If you have multiple accounts, perhaps because you have been in multiple institutions, attach one
certified statement of each account.

CERTIFICATE
(Incarcerated applicants only)
(To be completed by the institution of incarceration)
I certify that the applicant named herein has the sum of $

0

on account

to his/her credit at HARDEMAN COUNTY CORRECTION FACILITY.
I further certify that the applicant has the securities to his/her credit____

0

. I further certify
IS'

that during the past six months, the applicant's,deposited average balance was $
_______, am a CoreCivic employee,
I,
who serves as the Inmate Trust Fund Custodian for prisoners
e Hardeman County Correction
Facility. By my signature below, I certify that the attached computer printout of the named prisoner is
true and correct in designating his trust account activity for the past six (6) months with the Department
of Correction.
,
i——

DATE

SIGNATURE OF AUTHORIZED OFFICER; TRUST FUND CUSTODIAN

THE TRUST FUND TRANSACTION PRINTOUTS MUST BE SENT WITH YOUR TRUST
FUND AFFIDAVIT TO THE COURTS.

/

v

J

BI21A46

SELECT

L//-V I L_ .

UO/ ±U/ Z.U

TIME:

01:53

Account:
00139471 VICK
SPER L.
iCtual Site:
HCCF
Status:
ACTV Sex :
M >»„ce:
B Age :
65
/-.^signed Site:
HCCF
Current Balance:
Pending Balance:
Seq
Transaction
T rans
S Trans Date
No Type/Code/Amount
Site Current Amount Pend Amount
03/12/2020
5 D APP
03/12/2020
4 D POS
03/12/2020
3 D NOT'
03/12/2020
2 D COP
03/12/2020
1 C
PAD
02/13/2020
7 D POS
02/13/2020
6 D POS
02/13/2020
5 D POS
02/13/2020
4 D POS
02/13/2020
3 D APP
Search:
NEXT FUNCTION:
DATA:
Fl-HELP
F8-PAGEDOWN F9-QUIT
TOP OF LIST

2.69
12.40
1.00
0.25
16.32
1.50
2.10
2.45
3.80
3.27

HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF

Fll-SUSPEND

2.69
15.09
16.09
16.34
0.02
1.52
3.62
6.07
9.87

l^Uil

ruiMU

BI21A46

IKAIMbAUlUNb

DATE:
TIME:

SELECT

03/16/20
01:53

Account:
00139471 VICK
SPER L.
ictual Si te :
HCCF
Status:
ACTV Sex :
M Kace:
B Age:
65
Assigned Site:
HCCF
Current Balance:
Pending Balance:
Seq
Transaction
Trans
S Trans Date
No Type/Code/Amount
Site Current Amount
Pend Amount
02/13/2020
2 D FFF
02/13/2020
1 C PAD^
01/14/2020
4 D COM’
01/14/2020
3 D APP
01/14/2020
2 D FFF
01/14/2020
1 C
PAD
12/10/2019
8 D APP
12/10/2019
D
POS
12/10/2019
6 D
POS
12/10/2019
5 D POS
Search:
NEXT FUNCTION:
DATA:
FI-HELP
F4-FIRST
F7- PAGE UP

3.27
16.32
6.03
2.04
2.04
10.20
3.17
5.00
4.00
1.00

HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF

F8-PAGEDOWN

13.14
16.41
0.09
6.12
8.16
10.20
3.17
8.17
12.17

F9-QUIT

Fll-SUSPEND

' BI21A46

SELECT

TIME:

01:53

Account:
00139471 VICK
SPER L.
ictual Site:
HCCF
Status:
ACTV Sex:
M __ce:
B Age:
65
..^signed Site:
HCCF
Current Balance:
Pending Balance:
Seq
Transaction
T Tans'
S Trans Date
No Type/Code/Amount
Site Current Amount
Pend Amount
12/10/2019
4 D POS
4.00 HCCF
12/10/2019
3 D POS
1.45 riCCF
12/10/2019
2 D POS’
1.80 HCCF
12/10/2019
1 C PAD
20.40 HCCF
11/18/2019
1 D COM
0.89 HCCF
11/07/2019
5 D POS
1.95 HCCF
11/07/2019
4 D POS
1.00 HCCF*
11/07/2019
3 D POS .
1.95 HCCF
11/07/2019
2 D POS
10.65 HCCF
11/07/2019
1 C PAD
16.32 HCCF
Search:
NEXT FUNCTION:
DATA:
Fl-HELP
F4-FIRST
F7-PAGE UP
F8-PAGEDOWN

\

i

13.17
17.17 ;
18.62
20.42
0.02
0.91
2.86
3.86
5.81
16.46

F9-QUIT

Fll-SUSPEND

BI21A46

SELECT

TIME:

^—/ *<-»/
01:53

Account:
00139471 VICK
\SPER L.
\ctual Site:
HCCF
Status:
ACTV Sex:
M
;e:
B Age:
65
^signed Site:
HCCF
Current Balance:
Pending Balance:
Seq
T ransaction
T rans
S Trans Date
No Type/Code/Amount
Si te
Current Amount
Pend Amount
10/15/2019
7 D POS
10/15/2019
6 D POS
10/15/2019
5 D POS/
10/15/2019
4 D POS
10/15/2019
3 D APP
10/15/2019
2 D FFF
10/15/2019
1
C PAD
09/17/2019
1 D COM
09/13/2019
1 D POS
09/12/2019
3 D APP
Search:
NEXT FUNCTION:
DATA:
Fl-HELP
F4-FIRST
F7- PAGE UP

0.50
4.10
5.45
1.30
3.68
3.68
18.36
9.51
0.50
2.86

HCCF
Accf
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF
HCCF

F8-PAGEDOWN

0.14
0.64
4.74
10.19
11.49
15.17
18.85
0.49
10.00
10.50

F9-QUIT

FI1-SUSPEND

1

APPENDIX - C

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
GREENEVILLE DIVISION
JASPER LEE VICK

)
)
)
)
)
)
)
)
)
\
)

Plaintiff,
vs.
C. BERNARD, et al.
Defendants

2:15-CV-00116-JRG

REPORT AND RECOMMENDATION
Plaintiff has filed a motion [Doc. 48], which the Court has construed as a Motion for
Default Judgment and on March 26, 2018, the District Court entered an Order of Reference to the
undersigned for a Report and Recommendation [Doc. 51]. Defendants have responded. The
matter is now ripe for resolution.
On August 21, 2017, Plaintiff filed an Application for Clerk’s default as to Defendants C.
Bernard [Doc. 35], A. Combs [Doc. 36], B. Jennings [Doc. 37], and N. Linkous [Doc. 38]. In
response to Plaintiffs applications, on September 12, 2017, the Clerk entered a default as to each
Defendant [Docs. 40-43]. See Fed.R.Civ.P. 55(b)(1). On December 4, 2017, Plaintiff then filed
thi. motion for default judgment [Doc. 48], requesting the Court enter default judgment against
Defendants.
In response to that motion, Defendant Angela Combs filed motion to set aside the clerk’s
default and opposed Plaintiff s motion for default judgment [Doc. 52]. In her response, she avers
that she did not willfully fail to appear and defend the case. In fact, she alleges she just learned of
the lawsuit the week before April 9, 2018 [Doc. 52, pg. 1], She claims that she has a meritorious

1

Case 2:15-cv-00116-JRG-MCLC Document 68 Filed 06/07/18 Page 1 of 4 PagelD #: 548

defense and that Plaintiff would not otherwise be prejudiced as he is still attempting service of
process on the other Defendants. Plaintiff filed a response to that motion1 [Doc. 54] objecting to
the relief sought. The Court notes that the summons issued regarding A. Combs only indicates
that the summons and complaint were mailed by FedEx on February 7, 2017 and that it was signed
by “D. Barber” on February 13, 2017 as 12:37 [Doc. 54-1, pg. 6].
On April 20, 2018, the remaining Defendants, C. Bernard, N. Linkous, and B. Jennings
filed a similar motion to set aside the entry of default and their response in opposition to Plaintiffs
motion for default judgment [Doc. 57]. In their motion, they argue that they have not been properly
served, noting that the summons and complaint were served on Dawn Barber, not on the individual
Defendants [Doc. 57, pg. 1-2]. Plaintiff responded by filing a “Motion for Dismissal” of their
motion [Doc. 63].
Defendants also argue that Fed.R.Civ.P. 55(c) permits the Court to “set aside an entry of
default for good cause....” To determine good cause, the Court considers “whether (1) the default
was willful, (2) a set-aside would prejudice plaintiff, and (3) the alleged defense was meritorious.”
Dassault Systemes, SA v. Childress, 663 F.3d 832, 838-39 (6th Cir. 2011)(quoting United Coin
Meter Co. v. Seaboard Coastline Railroad, 705 F.2d 839, 844 (6th Cir. 1983)). Courts are
instructed to employ “considerable latitude” when assessing the “good cause” standard under Fed.
R. Civ. P. 55(c). O.J. Distributing, Inc. v. Horned Brewing Co., Inc.,'340 F.3d 345, 353 (6th Cir.
2003); see also United States v. Real Property & All Furnishings Known as Bridwell's Grocery &
Video, 195 F.3d 819, 820 (6th Cir. 1999). The Sixth Circuit has noted “a strong preference” for
cases to be decided on the merits. Shepard Claims Serv., Inc. v. William Darrah & Assoc., 796

1
Plaintiff actually styled his response as a “Motion for Dismissal of Defendant Combs’
Motion” in which he requests this Court deny Defendants’ motion [Doc. 54].
2

Case 2:15-cv-00116-JRG-MCLC Document 68 Filed 06/07/18 Page 2 of 4 PagelD #: 549

F.2d 190,193-94 (6th Cir. 1986). “All three factors must be considered in ruling on a motion to set
aside entry of default[,] [hjowever, when the first two factors militate in favor of setting aside the
entry, it is an abuse of discretion for a district court to deny a Rule 55(c) motion in the absence of
a willful failure of the moving party to appear and plead.” Id. at 194.
Upon a review of the record, it does not appear that any of these Defendants’ defaults were
willful. These are employees of the Tennessee Department of Corrections at the relevant time in
the Complaint, and it is not readily apparent that they were properly served. None of the
defendants personally accepted service. Instead, the summons and complaints were all mailed to
them at their place of employment and the intake officer, Dawn Barber, signed for them. They did
not.
Setting aside the entry of default will not prejudice Plaintiff. Plaintiff still has two
defendants he has not served, N. Riegal and L. Faret [Docs. 23, 24]. No discovery has occurred
and Plaintiff has not specifically identified how he would be prejudiced if the Court were to permit
the case to be resolved on the merits. Finally, Defendants allege that they each have a meritorious
defense to the complaint. That is also a basis to grant the relief requested.
Given the Sixth Circuit’s preference to resolve the case on the merits and given that the
undersigned does not see any real justification for not setting aside the defaults, the undersigned
RECOMMENDS that the Court cake the following actions:
(1)
(2)
(3)
(4)

DENY Plaintiffs motion for summary judgment, which this Court has construed
as a motion for default [Doc. 48];
GRANT Defendant’s A. Combs motion to set aside default [Doc. 52];
GRANT Defendants, C. Bernard, N. Linkous, B. Jennings motion to set aside
default [Doc. 57];
TERMINATE Plaintiffs motions to dismiss Defendants’ motions [Docs. 54, 63]
as these “motions” are, in essence, responses to Defendants’ motions and should
not be considered as motions, but considered as Responses to Defendants’
motions.

3

Case 2:15-cv-00116-JRG-MCLC Document 68 Filed 06/07/18 Page 3 of 4 PagelD#:550

Respectfully Submitted,2

s/Clifton L. Corker
United States Magistrate Judge

2 Any objections to this report and recommendation must be served and filed within fourteen (14)
days after service of a copy of this recommended disposition on the objecting party. Fed. R. Crim.
P. 59(b)(2). Failure to file objections within the time specified waives the right to review by the
District Court. Fed. R. Crim. P. 59(b)(2); see United States v. Branch, 537 F.3d 582 (6th. Cir.
2008); see also Thomas v. Arn, 474 U.S. 140, 155 (1985) (providing that failure to file objections
in compliance with the time period waives the right to appeal the District Court’s order). The
District Court need not provide de novo review where objections to this report and
recommendation are frivolous, conclusive, or general. Mira v. Marshall, 806 F,2d 636, 637 (6th
Cir. 1986). Only specific objections are reserved for appellate review. Smith v. Detroit Federation
of Teachers, 829 F.2d 1370, 1373 (6th Cir. 1987).

4

Case 2:15-cv-00116-JRG-MCLC Document 68 Filed 06/07/18 Page 4 of 4 PagelD #: 551

APPENDIX-D

Jasper Lee Vick, #139471
South Central Correctional Center
P.O. Box 279
Clifton, TN 38425

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
JASPER LEE VICK,

)
)
)
)

Plaintiff,
v.

)

No. 2:15-CV-116-JRG-MCLC

)
)
)
)

C. BERNARD, et al.,
Defendants.

ORDER
This civil action is before the Court on Magistrate Judge Clifton L. Corker’ Report and
Recommendation (“R&R”), issued on June 7, 2018 [Doc. 68]. In the R&R, Magistrate Judge Corker
has recommended that the Court deny PlaintifFs Motion for Default Judgment [see Doc. 48], grant
the Motions to Set Aside Default filed by Defendants Combs, Bernard, Jennings, and Linkins [see
Docs. 52, 57], and terminate Plaintiffs motions to dismiss Defendants’ motions [see Decs. 54, 63].
Specifically, Magistrate Judge Corker found that these Defendants appear to have meritorious
defenses to the Complaint and did not willfully default, and that setting aside default would not
prejudice Plaintiff [Doc. 68 at 3]. Plaintiff objected to the R&R, and Defendants have now responded
in opposition to those objections [Docs. 72, 74].
For the reasons set forth below, the Court will ADOPT the findings of fact and conclusions
of law set forth in the R&R, OVERRULE Plaintiffs objections to the R&R, DENY Plaintiffs
Motion for Default [Doc. 48], TERMINATE Plaintiffs Motion to Dismiss the Defendants’ Motions
to Set Aside Default [Docs. 54, 63], and GRANT the Defendants’ Motions to Set Aside Default
[Docs. 52, 57],

Case 2:15-cv-00116-JRG-MCLC Document 77 Filed 07/26/18 Page 1 of 4 PagelD #: 602

I.

TIMELINESS OF PLAINTIFF’S OBJECTIONS
In the R&R, Magistrate Judge Corker advised the parties that they had fourteen days in which

to file any objections to the R&R, and that “failure to file objections within the time specified waives
the right to review by the District Court” [Doc. 68 at 4 n.2]. The Court received Plaintiffs objection
to the R&R [Doc. 72] on June 29, 2018 - that is, twenty-two days after the entry of the R&R.
Defendants accordingly argue that Plaintiff has waived objections to the R&R by filing objections
after the fourteen-day deadline and that the Court should thus disregard the filing [Doc. 74 at 1].
Pursuant to the R&R, the fourteen-day period in which objections could be timely filed expired
on June 21, 2018. However, pursuant to Federal Rule of Civil Procedure 6(d), three days must be
added to the fourteen-day time period because Defendant was served the Magistrate Judge’s report
by mail. United States v. Hinz, 126 F. Supp. 3d 921, 925 n.l (N.D. Ohio) (citing Fed. R. Civ. P. 6(d);
Thompson v. Chandler, 36 F. App’x 783, 784 (6th Cir. 2002). With the benefit of Rule 6(d), the cutoff
for filing objections thus moves to Sunday, June 24, 2018. Rule 6(a)(1)(C) provides that if the last
day of the filing period “is a Saturday, Sunday, or legal holiday, the period Continues to run until the
end of the next day that is not a Saturday, Sunday, or legal holiday.” This shifts the deadline for
timely objections yet another day, to June 25, 2018.
Finally, the Court must consider the application of the prison mailbox rule. The prison
mailbox rule provides that the papers of incarcerated pro se inmates be deemed filed when they are
delivered to prison authorities for mailing to the Court. See, e.g., Houston v. Lack, 487 U.S. 266, 27071 (1988). Although Plaintiffs filing was not received by the Court until June 29, 2018, a review of
the filing indicates that it was signed and notarized on June 25, 2018 [Id. at 2-3]. As discussed above,
the deadline for Plaintiff to timely file objections to the R&R was June 25, 2018, and the Court
2

Case 2:15-cv-00116-JRG-MCLC Document 77 Filed 07/26/18 Page 2 of 4 PagelD #: 603

concludes that Plaintiffs objections were timely “filed” on June 25, 2018 - the date that the motion
was signed and dated before a notary.
II.

PLAINTIFF’S OBJECTIONS
In the R&R, Magistrate Judge Corker summarized the parties’ arguments in favor of and

opposition to setting aside the defaults that were entered against Defendants Combs, Bernard,
Jennings and Linkins, as well as the legal standards applicable to the evaluation of such arguments.
[Doc. 68 at 1-3]. The magistrate judge concluded
Upon a review of the record, it does not appear that any of these Defendants’ defaults
were willful. These are employees of the Tennessee Department of Corrections at the
relevant time in the Complaint, and it is not readily apparent that they were properly
served. None of the defendants personally accepted service. Instead, the summons
and complaints were all mailed to them at their place of employment and the intake
officer, Dawn Barber, signed for them. They did not.
[Id. at 3]. The magistrate judge noted that setting aside default was further supported by Defendants’
allegations of a meritorious defense to Plaintiffs Complaint, and by the fact that Plaintiff will not
prejudiced given the current procedural posture of this action. [Id.]. Based on these findings, the
magistrate judge recommended that the Defendants’ Motions to Set Aside Default be granted, and
that Plaintiff s Motion for Default Judgment be denied.
Plaintiff has objected to the recommendations set forth in the R&R. Plaintiffs primary
objection is one based on fundamental fairness. Plaintiff states that the Court “is allowing the
Defendants to violate the Rules,” and posits that the Court would have dismissed his Complaint “if
he would have violated any of the Fed. R. Civ. P.” Accordingly, Plaintiff maintains that the
“Defendants should be held liable” for violating the rules in the same way that the Court would have
held Plaintiff liable [Doc. 72], However, Plaintiff fails to acknowledge that Federal Rule of Civil
Procedure 55(c) provides a mechanism by which an entry of default may be set aside. Upon review,
3

Case 2:15-cv-00116-JRG-MCLC Document 77 Filed 07/26/18 Page 3 of 4 PagelD #: 604

the Court concludes that Magistrate Judge Corker properly set forth the legal standard applicable to
consideration of a request to set aside default pursuant to Rule 55(c) and properly applied that standard
to the facts of this case. Accordingly, this objection lacks any arguable merit.
The remainder of Plaintiffs objections merely restate arguments set forth in Plaintiffs
response in opposition to Defendants’ motions.

Specifically, Plaintiff repeatedly asserts that

Defendants cannot claim that they were unaware of the action, given that Inmate Records Office
Supervisor Dawn Barber accepted service on behalf of Defendants’ on February 13, 2017, and as
such, cannot argue that their failure to respond to Plaintiffs Complaint was not willful [Compare
Docs. 54 at 1-2, and Doc. 63 at 2-3, with Doc. 72 at 1-2]. These arguments, however, were fully
addressed in Magistrate Judge Corker’s R&R, and the Court agrees with the well-reasoned
conclusions set forth therein [See Doc. 68 at 3].
III.

CONCLUSION
For the above reasons, the Court hereby
•

ACCEPTS and ADOPTS the findings of fact and conclusions of law set forth in the
R&R;

•

OVERRULES Plaintiffs objections to the R&R;

•

DENIES Plaintiffs Motion for Default [Doc. 48];

•

TERMINATES Plaintiff s Motion to Dismiss the Defendants’ Motions to Set Aside
Default [Docs. 54, 63]; and

•

GRANTS the Defendants’ Motions to Set Aside Default [Docs. 52, 57],

IT IS SO ORDERED.
ENTER:

s/J. RONNIE GREER
UNITED STATES DISTRICT JUDGE

4

Case 2:15-cv-00116-JRG-MCLC Document 77 Filed 07/26/18 Page 4 of 4 PagelD #: 605

APPENDIX-E

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TENNESSEE
JASPER LEE VICK,
Plaintiff,
v.
C. BERNARD, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No. 2:15-CV-116-JRG-MCLC

DEFENDANT N. RIEGEL’S MOTION TO DISMISS
COMES NOW the Defendant N. Riegel (the “Defendant”) by and through counsel1, and
pursuant to Rule 12(b)(5) of the Federal Rules of Civil Procedure, moves this Honorable Court to
enter an Order dismissing all claims raised by the Plaintiff. In the alternative, Defendant would
request that the summons returned as “executed” be stricken from the Court record. See [Doc.
59]. As grounds for this Motion, the Defendant asserts that the Plaintiff has failed to comply
with the service of process requirements in the Federal Rules of Civil Procedure Rule 4.
Therefore, his claims against Defendant should be dismissed pursuant to the Federal Rules of
Civil Procedure Rule 12(b)(5). In further support of this Motion, Defendant states as follows:
1.

The Plaintiff filed his Complaint on April 24, 2015, alleging, among other things,

civil rights violations pursuant to 42 U.S.C. Section 1983. Specifically, he alleges retaliation for
engaging in protected conduct against him on the part of the Defendant.

Counsel has been retained to represent the interests of Ms. Riegel, but has been unable to make contact with or
locate her. Her employment at NECX ended in December of 2014 and the contact information previously provided
to the Court is the only contact information that we have at this time. Counsel for Ms. Riegel files this motion out of
an, abundance of caution to prevent a default judgment from being entered against Ms. Riegel.

1

2.

Plaintiff, however, failed to properly serve the Defendant with process under

Federal Rules of Procedure Rule 4. Therefore, pursuant to Rule 12(b)(5) of the Federal Rules of
Civil Procedure, Plaintiffs Complaint should be dismissed.
3.

Pursuant to Rule 12(b)(5) of the Federal Rules of Civil Procedure, “a complaint

may be dismissed for [^insufficient service of process^]Sydney v. Columbia Sussex Corp.,
No. 3:13-CV-312-TAV-CCS, 2014 WL 7156953, at *1 (E.D. Tenn. Dec. 15, 2014) quoting OJ.
Distrib., Inc. v. Hornell Brewing Co., 340 F.3d 345, 353 (6th Cir.2003). Further, “[d]ue process
requires proper service of process for a court to have jurisdiction to adjudicate the rights of the
parties.” Id. A plaintiff is responsible for serving the summons and complaint in accordance with
Federal Rule of Civil Procedure 4 and within the time allowed by Rule 4(m). Id. citing
Fed.R.Civ.P. 4(c) (1). “[AJctual knowledge and lack of prejudice cannot take the place of legally
sufficient service.” Id. quoting LSJInv. Co. v. O.L.D., Inca 167 F.3d 320, 324 (6th Cir.1999).
4.

Rule 4(e) of the Federal Rules of Civil Procedure governs the service of process

requirements and provides as follows:
(e) Serving an Individual Within a Judicial District of the United
States. Unless federal law provides otherwise, an individual—other
than a minor, an incompetent person, or a person whose waiver has
been filed—may be served in a judicial district of the United States
by:
(1) following state law for serving a summons in an action brought
in courts of general jurisdiction in the state where the district court
is located or where service is made; or
(2) doing any of the following:
(A) delivering a copy of the summons and of the complaint to the
individual personally;
(B) leaving a copy of each at the individual's dwelling or usual
place of abode with someone of suitable age and discretion who
resides there; or
(C) delivering a copy of each to an agent authorized by
appointment or by law to receive service of process.

2

5.

In the present case, the Plaintiff attempted to comply with Rule 4(e) by

effectuating service by certified mail, a manner allowed by Tennessee state law.
6.

Rule 4.04(10) of the Tennessee Rules of Civil Procedure states:
Service by mail of a summons and complaint upon a defendant may be
made by the plaintiff, the plaintiffs attorney or by any person authorized
by statute. After the complaint is filed, the clerk shall, upon request,
furnish the original summons, a certified copy thereof and a copy of the
filed complaint to the plaintiff, the plaintiffs attorney or other authorized
person for service by mail. Such person shall send, postage prepaid, a
certified copy of the summons and a copy of the complaint by registered
return receipt or certified return receipt mail to the defendant. If the
defendant to be served is an individual or entity covered by subparagraph
(2)> (3), (4), (5), (6), (7), (8), or (9) of this rule, the return receipt mail shall
be addressed to an individual specified in the applicable subparagraph.
The original summons shall be used for return of service of process
pursuant to Rule 4.03(2). Service by mail shall not be the basis for the
entry of a judgment by default unless the record contains a return receipt
showing personal acceptance by the defendant or by persons designated by
Rule 4.04 or statute. If service by mail is unsuccessful, it may be tried
again or other methods authorized by these rules or by statute may be
used.

7.

Thus, according to Tennessee law, in order for service to be properly effectuated

through certified mail, there must be a return receipt showing personal acceptance by the
defendant, or someone designated to accept service on their behalf.
8.

In this case, a copy of the summons and complaint was mailed to the Defendant’s

last known address, which was provided by either the Warden of NECX or the Commissioner of
the TDOC pursuant to the Court’s Order. [Doc. 51 p.5]. The return of service filed with the
Court indicates that the package containing the summons and complaint was “left at side door.”
[Doc. 59 p. 4], As such, neither the Defendant, nor anyone authorized to accept service on her
behalf, signed the return receipt as required by Tennessee Law. Therefore Plaintiff failed to
comply with Rule 4(e) of the Federal Rules of Civil Procedure and dismissal is appropriate.

3

\

9.

Defendant further wishes to preserve, aver, rely upon, plead as an affirmative

defense any statute of limitations, statute of repose, failure to state a claim upon which relief can
be granted, insufficient process, insufficient service of process, venue, lack of subject matter
jurisdiction, and other jurisdiction defenses that the evidence may show to be applicable.
12.

Defendant also expressly preserves all available affirmative defenses and bases of

dismissal that the evidence may show to be applicable.
13.

In the alternative, Defendant requests that the summons returned as “executed” be

stricken from the Court record. See [Doc. 59].
WHEREFORE, Defendant, N. Riegel, respectfully moves this Court for entry of a Final
Order under Rule 54 of the Federal Rules of Civil Procedure, dismissing the Petitioner’s
Complaint pursuant to Rule 12(b)(5) of the Federal Rules of Civil Procedure, or in the
alternative, that the summons returned as “executed” be stricken from the Court record..
Respectfully submitted this 21st day of May, 2018.

By: /s/ Jeremev R. Goolsbv
Heidi A. Barcus (BPRNo. 015981)
Daniel T. Swanson (BPRNo. 023051)
Jeremey R. Goolsby (BPR No. 034505)
LONDON & AMBURN, P.C.
607 Market Street, Suite 900
Knoxville, TN 37902
Phone: (865) 637-0203
Fax: (865) 637-4850
hbarcus@londonambum.com
dswanson@londonambtim.com
JGoolsbv@londonambum.com

CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing was filed electronically. Notice of this filing
will be sent by operation of the Court’s electronic filing system to all parties indicated on the
4

electronic filing receipt. Parties may access this filing through the Court’s electronic filing
system. I further certify that a copy was mailed by regular U.S. mail, postage prepaid, to the
Plaintiff at the address below:
Jasper Vick #139471
SCCF
P.O. Box 279
Clifton, TN 38425-0279
L. Faret
155 Haun Rd.
Erwin, TN 37650
Respectfully submitted this 21st day of May, 2018.
/s/ Jeremev R. Goolsbv______
Heidi A. Barcus (BPRNo. 015981)
Daniel T. Swanson (BPRNo. 023051)
Jeremey R. Goolsby (BPR No. 034505)
LONDON & AMBURN, P.C.
607 Market Street, Suite 900
Knoxville, TN 37902
Phone: (865) 637-0203
Fax: (865) 637-4850
hbarcus@londonambum.com
dswanson@londonambum.com
Jgoolsbv@londonambtim.com

5

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
GREENEVILLE DIVISION
JASPER LEE VICK,
Plaintiff,
vs.
C. BERNARD, et al.,
Defendants

)
)
)
)
)
)
)
)
)
)

2:15-CV-00116-JRG

ORDER
This matter is before the Court on Plaintiffs Motion to Impose Sanctions [Doc. 170]
upon Defendants for their failure to file a Pretrial Narrative Statement on or before November
12, 2019 as ordered by the Court. [Doc. 126]. Plaintiff requests sanctions in the form of a five
thousand dollar ($5,000) fine, costs for legal research or secretarial services, and “exclusion of
that evidence to be offered at trial.” [Doc. 170, p. 2].
Defendants Pardue and Combs filed a Response in Opposition to Motion for Sanctions
[Doc. 171], in which they pointed out that the deadlines Plaintiff referenced in his Motion were
superseded by the Third Amended Scheduling Order [Doc. 147]. This order required Defendants
to file a Pretrial Narrative Statement by February 11, 2020 if Plaintiff first filed a Pretrial
Narrative Statement by February 4, 2020. Defendants admit that they were incorrect in filing a
notice to the Court on February 10, 2020 stating that Plaintiff had failed to file a Pretrial
Narrative Statement as required [Doc.165] since Plaintiff had actually filed a Pretrial Narrative
Statement on September 9,2019 [Doc. 146]. Despite this error, Defendants assert they acted in
good faith at all times and did not intentionally disobey the Court’s order [Doc. 171, p. 1].

Case 2:15-cv-00116-JRG-CRW Document 174 Filed 07/31/20 Page 1 of 3 PagelD#:1460

Defendants further argue that the filing of Pretrial Narrative Statements was rendered moot by
the entry of an Order dismissing all claims against Defendant Riegal [Doc. 158] on January 7,
2020 and an Order granting summary judgement to all remaining defendants on January 15,
2020 [Doc. 159]. i
Rule 16 of the Federal Rules of Civil Procedure permits sanctions if a party or its attorney
fails to obey a scheduling or other pretrial order of the Court. Fed. R. Civ P. 16(f)(1)(C). The
Court enjoys broad discretion in determining when sanctions are appropriate as well as what
type of sanctions are warranted. See Clarksville-Montgomery Cty. Sch. Sys. v. U.S. Gypsum Co.,
925 F.2d 993, 998 (6th Cir. 1991); Estes v. King’s Daughters Med. Ctr., 59 Fed. App’x 749,
753 (6th Cir. 2003).
Flere, at worst there may have been a technical failure to follow the Court’s scheduling
order but not one of the type which would justify the Court imposing sanctions. Although
Plaintiff based his motion on the dates in the Second Amended Scheduling Order [Doc. 126],
those dates were superseded when the Court issued the Third Amended Scheduling Order [Doc.
147], resulting in Defendants no longer being required to file a Pretrial Narrative Statement by
November 12, 2019 and effectively granting a three-month extension. Additionally, Defendants
were presumptively granted summary judgement prior to the February 11, 2020 due date for
their Pretrial Narrative Statement, rendering the filing of such statement unnecessary. Although
the grant of summary judgement was not finalized until the Court denied Plaintiffs motion in

1 This Order granted the motion for summary judgment filed by all remaining defendants but Pardue and Combs
[Doc. 130]. The order noted that Defendants Pardue and Combs also filed a motion for summary judgment [Doc.
127], but the Court did not rule on that motion and instead granted summary judgment based on the lack of
evidence to establish causation. Because summary judgment was granted on a ground not raised by Defendants
Pardue and Combs, Plaintiff was afforded fourteen days to oppose the grant of summary judgement pursuant to
Fed. R. Civ. P. 56(f). Plaintiff filed an objection [Doc. 163], which the Court subsequently denied, and a final
order of summary judgement was entered as to Defendants Pardue and Combs on Feb. 12, 2020 [Doc. 166],

Case 2:15-cv-00116-JRG-CRW Document 174 Filed 07/31/20 Page 2 of 3 PagelD #: 1461

opposition on February 12, 2020, one day after the deadline, the Court finds persuasive
Defendants argument that they acted in good faith and with no intention to disobey the Court’s
order. For these reasons, Plaintiffs Motion to Impose Sanctions [Doc. 170] is DENIED.
SO ORDERED:
/s Cynthia Richardson Wvrick
United States Magistrate Judge

Case 2:15-cv-00116-JRG-CRW Document 174 Filed 07/31/20 Page 3 of 3 PagelD#:1462

;

APPENDIX-F

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TENNESSEE
AT GREENEVILLE
JASPER LEE VICK,
Plaintiff,
v.

No. 2:15-cv-OO 116-JRG-MCLC

C. BERNARD, et aL,
Defendants.

PLAINTIFF'S MOTION FOR MISSING WITNESS INSTRUCTION
FOR DEFENDANT RIEGEL
AND
MOTION IN OPPOSITION TO DEFENDANT'S RIEGEL RESPONSE

MAY IT PLEASE THE COURT.
Comes now Plaintiff Jasper Lee Vick, (TDOC #139471), acting pro se, [unlearned in
law], and would respectfully submit this pleading, motion, "PLAINTIFF'S MOTION FOR
MISSING WITNESS INSTRUCTION FOR DEFENDANT RIEGEL AND MOTION IN
OPPOSITION TO DEFENDANT'S RESPONSE" as grounds for this pleading the Plaintiff
would submit the following:
On August 26,2019, Plaintiff submitted his motion, "MOTION IN OPPOSITION TO
N. RDBGAL'S MOTION TO DISMISS", pursuant to document No 135 (Defendants motion
to dismiss), filed August 1,2019, and moves this Honorable Court to not grant the
Defendants Motion, for their dilatory actions are an obvious prevarication of the facts:
1. "In their motion, counsel for Defendant states in note 1 that counsel was
retained by Ms. Riegal. Therefore, by virtue of their own admission, they are
in contact with Ms. Riegal, or she would not have been able to retain them.
Logic and common sense would dictate that the Defendant is attempting to
elude prosecution by evading service, yet has retained counsel in her behalf."
2. "In accordance with 39-16-507 (a)(3), Coercion of witness. Since the
Case 2:15-cv-00116-JRG-CRW Documeptc$f6# Filed 02/06/20 Page lot 4 PagelD#:1416

Defendant's counsel is putting forth a motion, clearly they are attempting to
coerce the Defendant from appearing in the proceeding due to the nature of the
damaging testimony that she will provide, because she was the one present
and participated in the actions against the Plaintiff. T.C.A. §39-16-507" .
Defendant Riegel’s counsel have now filed a "Resopnse In Opposition to Plaintiff
Motion", January 27, 2020, asserting that "Defendant's counsel did not state thet were
retained by Ms. Riegel. Rather, as explained in Defendant's motion to dismiss, counsel was
retained to represent the interest of the Defendant, but has been unable to make contact or
locate her. Doc. No. 135."
Pursuant to Fed. R Civ. P. 4(e)(2)(c), Defendant Riegel and retained counsel have
been properly served and can not say otherwise based on her "Notice of Appearance" and
many motions to this Court for inapporiate dismissal(s) "delivering a copy of each to an agent
authorized by appoinment or by lawreceice service of process." [Fed. R. Civ. P.].

If a party has it peculiarly within his power to produce witnesses whose testimony
would elucidate the transaction, the fact that he does not do it creates the presumption that the
testimony, if produced, would be unfavorable. When a witness is peculiarly within the control
of one party, and that witness' testimony would elucidate facts in issue, an instruction is
appropriate regarding the permissible inference which the jury may draw from the party's
failure to call the witness. However, to receive a missing witness instruction, the requesting
party must demonstrate: the potential witness' unavailability in a physical or practical sense;
and that the potential testimony would be relevant and noncumulative. An inference from a
party's failure to call a witness equally available to both parties is impermissible. A party who
may or may not invoke the Fifth Amendment is equally available to either party.
1). Defendant Riegel has retain counsel authorized by appoinment or by law have
received service of process; and 2). Defendant's testimony is relevant to this cause of action.

Case 2:15-cv-00116-JRG-CRW Document £@"4 Filed 02/06/20 Page 2 of 4 PagelD #: 1417

In the case of Robinson v. Winn this Court held: (In Ppart):
"The trial court abused its discretion in ruling the prosecution had shown due
diligence admitting [to] produce Frank Coleman and by denying Robinson a missing
witness instruction, thus denying Mr. Robinson his state and federal constitutional
right to confrontation." Robinson v. Winn, 2019 LEXIS 94708 (June 2019).
Accordingly the Defendants has effectively denied Plaintiff his state and federal
constitutional right to confrontation, thus Plaintiff respectfully request the court for "missing
witness instruction as to Defendant Riegel. Plaintiff asserts that Defendant Riegel, under oath
will testify with relevant information as to her involvement in her joining the scheme of
retaliation against the Plaintiff.
In the case of Berry v. Mays, this Court held: (In part):
"The Tennessee Court of Criminal Appeals also found that, although Petitioner
contended that he could have used Murphy's statement to cross examine witnesses at
trial, called Murphy as a witness, argued the inconsistencies between Murphy's and
Cartwright’s accounts during closing argument,(2019 U.S. Dist. LEXIS 53} or asked
for a missing witness instruction regarding the failure of the State to call Murphy,
Cartwright's testimony was not the only incriminating evidence against Petitioner with
regard to premeditation." Berry v. Mavs. U.S. 2019 U.S. Dist. LEXIS 107966 (6th
Cir2019)
To further the mindset of #1 above, the defendant's Counsel is in admission of the fact
that they are acting as "Agent" for their client. Therefore, since they had a contractual
obligation as well as ethical and fiduciary relations with their client, the defendant has been
served. There is a long standing maxim in law that states: "NOTICE TO AGENT IS
NOTICER TO PRINCIPAL, NOTICE TO PRINCIPAL IS NOTICE TO AGENT."
It is the duty of the agent to locate their client after the agent receives "NOTICE."
August 26,2019, Plaintiff timely submitted his response "IN OPPOSITION TO
DEFENDANT N. RIEGAL'S MOTION TO DISMISS."
Plaintiff timely submit this motion, "Plaintiffs Motion for Missing Witness Instruction
for Defendant Riegel and Motion In Opposition to Defendant's Riegel's Response", and

Case 2:15-cv-00116-JRG-CRW DocumesitCSSU Filed 02/06/20 Page 3 of 4 PagelD#:1418

MOVE the Court to schedule this case for trial with "Missing witness Instruction" as to
Defendant Riegel.
Furthermore, Plaintiff timely submitted his motion, "Motion for Summary Judgment"
on September 12,2019, against these Defendants, et al, and hereby MOVE the Court to
schedule this case for trial and preserve the ORDER Document 158 for appellate purposes
with "missing witness instruction.
Fctoruav/ °5L
Respectfully submitted, this Jasus?y-igf2 020.
Respectfully submitted,
•\pper Lee Vick, #139471
2520 Union Springs Road
Whiteville, TN 38075
X.c.: FI. #20-006
CERTIFICATE OF SERVICE
I hereby certify that a true and correct copy of the foregoing has been forwarded to:
London & Ambum, PC
607 Market Street, Suite 900
Knoxville, TN 37902

STATE OF TENNESSEE
Pamela Lorch
PO Box 20207
Nashville, TN 37201

via prepaid first class U.S. Postage this ^^g=^^020.

Case 2:15-cv-00116-JRG-CRW Document $$4 Filed 02/06/20 Page 4 of 4 PagelD #: 1419

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TENNESSEE
AT GREENEVILLE
JASPER LEE VICK,
Plaintiff,

)
)
)
)

)

v.

C. BERNARD, et al.,
Defendants.

No. 2:15-CV-116

)
)
)
)

ORDER
These matters are before the Court on Plaintiff Vick’s Motion to Reconsider Docket Entry
158, [Doc. 161], Motion to Reconsider Document Number 159, [Doc. 163], and Motion for
Missing Witness Instruction for Defendant Riegal and Motion in Opposition to Defendant Riegal’s
Response, [Doc. 164], Plaintiffs Motions involve seven Defendants. Four are employees of
Centurion of Tennessee, LLC—Dr. Clement F. Bernard, Nurse Practitioner Beth Jennings Morley,
Nurse Natalie Linkins, and Nurse Stephanie Carmody (“Centurion Defendants”). Two are
individuals represented by the State of Tennessee—Defendants Angel Combs and Leslie Faret aka
Pardue (“State Defendants”). Last is N. Riegal, a Defendant never served by Plaintiff. The claims
against the Centurion Defendants and N. Riegal have been dismissed. Plaintiff requests that the
Orders dismissing those Defendants be reconsidered.
The Court has stated the grounds on which it will grant the State Defendants summary
judgment under Federal Rule of Civil Procedure 56(f). [Doc. 159]. Plaintiff opposes the granting
of summary judgment. After reviewing Plaintiffs opposition and for the reasons set forth in the
Court’s prior Order, the Court GRANTS summary judgment for the State Defendants, Angel

1
Case 2:15-cv-00116-JRG-CRW Document 166 Filed 02/12/20 Page 1 of 6 PagelD #: 1423

Combs and Leslie Faret aka Pardue, and Plaintiffs claims against them will be DISMISSED with
prejudice.
I.

Plaintiffs Motion to Reconsider Docket Entry 158 is DENIED because he relied on
his previous arguments and did not show that a clear error or manifest injustice
needed correction.
Under Sixth Circuit jurisprudence, a district court has the authority to reconsider a

previously filed order under Rule 54(b) of the Federal Rules of Civil Procedure and common law.
Rodriguez v. Tennessee Laborers Health & Welfare Fund, 89 F. App’x 949, 959 (6th Cir. 2004).
The reconsideration of an order is appropriate “when there is (1) an intervening change of
controlling law; (2) new evidence available; or (3) a need to correct a clear error or prevent
manifest injustice.” Id. A motion to reconsider does not give a party the opportunity to make the
same arguments already ruled on. Helton v. ACS Grp., 964 F. Supp. 1175, 1182 (E.D. Tenn. 1997).
Plaintiffs first motion requests the Court to reconsider Defendant Riegal’s dismissal. In
the motion, he makes the same arguments that he made in his response to the Motion to Dismiss
filed on behalf of Defendant Riegal. [Doc. 161-1, 1398], He argues that attorneys hired to
represent Defendant Riegal’s interests must be in contact with her. [Id.]. Plaintiff gives no evidence
supporting his claim that they have been in contact with her. [Id.]. Defense Counsel has repeatedly
stated that they have not been able to contact Riegal. [Doc. 162]. Plaintiff again accuses
Defendant’s counsel of attempting to coerce Riegal to prevent her from testifying in violation of
Tennessee Code Annotated § 39-16-507. [Doc. 161-1, PagelD 1398-99]. Plaintiff provides no
evidence that counsel has ever contacted Riegal, let alone attempted to coerce her. [Id.]. Plaintiff
also argues that Defendant Riegal has notice of the lawsuit through counsel, which he claims are
her agent-attorneys. [Doc 161, PagelD 1396], These are not grounds for reconsideration of the
Court’s previous order.

2

Case 2:15-cv-00116-JRG-CRW Document 166 Filed 02/12/20 Page 2 of 6 PagelD#: 1424

Plaintiff Vick does not argue that controlling law changed or that new evidence is available.
Therefore, the only grounds available to reconsider the Court’s previous Orders are “a need to
correct a clear error or prevent manifest injustice.” Plaintiff fails to show that a clear error or
manifest injustice exists. Defense counsel assert that it has never been able to contact Riegal.
Further, Plaintiff has failed to serve Defendant Riegal. Actual knowledge does not meet the
requirement for service of process. Taylor v. Stanley Works, No. 4:01-CV-120, 2002 WL
32058966, at *3 (E.D. Term. July 16, 2002). Therefore, even if Defense Counsel has been in
contact with Riegal, her actual knowledge of the lawsuit would not overcome the lack of service
of process. Therefore, there is no “need to correct a clear error or prevent manifest injustice,” and
the motion is DENIED.
II.

Plaintiffs Motion to Reconsider Document Number 159, including its opposition of
summary judgment for the State Defendants is DENIED.
In his second motion, Plaintiff asks the Court to reconsider its grant of summary judgment

to the Centurion Defendants and opposes the granting of summary judgment for the State
Defendants. Plaintiff appears to rely on the same, previously made, arguments for reconsideration
and in opposition. Again, Plaintiff relies arguments already presented to the Court, and he points
to areas of the record that he believes the Court has overlooked.
Plaintiff states that in a response to Plaintiffs grievance, Health Administrator Georgia
Crowell stated that Plaintiff was a chronic patient that was seen by a physician every three months.
[Doc. 163, PagelD 1410-11], Plaintiffs most recent appointment was on July 14, 2014. [Id.]. But
Plaintiffs next appointment was on August 18, 2014, which was far less than three months away.
[Id. ]. Plaintiff insinuates that the accelerated appointment schedule proves causation for retaliation.
[Id.].
3

Case 2:15-cv-00116-JRG-CRW Document 166 Filed 02/12/20 Page 3 of 6 PagelD #: 1425

The Court disagrees with Plaintiff. It is undisputed that medicine prescribed to Plaintiff
was not controlling his blood sugar in August of 2014. [Doc. 159, PagelD 1356], The inability to
control his blood sugar, according to his physicians, prompted his stay in the infirmary. [Id. at
PagelD 1357], The inability to control his blood sugar also explains why he was seen by a
physician before his three-month chronic patient checkup. In fact, it could be argued that waiting
until his checkup to treat the out-of-control blood sugar would be improper.
Plaintiff also argues that the record contains false reports and Defendants are using the
false reports to cover up their retaliatory actions. [Doc. 163, PagelD 1411-12], According to the
Plaintiff, while Plaintiffs medical records indicate he consented to his admittance to the infirmary,
he denies he ever consented. [Id.]. Even accepting Plaintiffs allegations as true, a dispute about
the accuracy of the records is not a ground for reconsideration and denial of Defendants’ motion
for summary judgment. The undisputed account of Plaintiffs medical condition shows that
Plaintiffs blood sugar was not responding appropriately to medication, and his stay in the
infirmary was for medical purposes. [Doc. 159, PagelD 1356-57],
Neither of Plaintiffs arguments for reconsideration of Document 159 meets the Sixth
Circuit standard of showing a change of law, new available evidence, or “a need to correct a clear
error or prevent manifest injustice.” Rodriguez, 89 F. App'x at 959. Therefore, Plaintiffs Motion
for Reconsideration of Document 159 is DENIED.
Plaintiff also opposes the granting of summary judgment for the State Defendants, but he
does not give specific grounds for the opposition. The Court assumes Plaintiff intended to apply
his arguments for reconsideration to his opposition as well. These grounds are not sufficient to
deny the State Defendants summary judgment. Even when giving special attention to the facts
focused on by Plaintiff, he still fails to produce evidence to establish causation, the third element

4
Case 2:15-cv-00116-JRG-CRW Document 166 Filed 02/12/20 Page 4 of 6 PagelD#: 1426

of a retaliation claim in the Sixth Circuit. Brown v. Crowley, 312 F.3d 782, 787 (6th Cir. 2002).
Therefore, the State Defendants are GRANTED summary judgment.
III.

Plaintiff's motion for missing witness instruction for Defendant Riegal is DENIED.
Plaintiffs last motion is a Motion for Missing Witness Instruction for Defendant Riegal

and Opposition to Defendant Riegal’s Response. Plaintiff cites Federal Rule of Civil Procedure
4(e)(2)(C) as grounds for service of process for Defendant Riegal. This Rule permits the service
of an authorized agent for service of process. [Doc. 1417]. However, as discussed above, Plaintiff
has not established that counsel for the Centurion Defendants is an agent for Defendant Riegal.
Defense counsel has consistently and repeatedly stated that they have been unable to contact
Riegal, and Plaintiff has never shown that he has served Riegal.
Plaintiff also requests a missing witness instruction to a jury stating that Defendant Riegal
has been hidden by Defendants and that a jury could presume that any testimony that Riegal would
have given would be unfavorable to Defendants. [Doc. 164, PagelD 1417-18]. Plaintiff states that
hiding Riegal denies the right to confront a witness, and an adverse instruction to the jury could
remedy the violation. [Id. at PagelD 1418], However, the Confrontation Clause and the right to
confront witnesses only apply in criminal prosecutions, not civil proceedings. Crawford v.
Washington, 541 U.S. 36,38 (2004). For this reason, Plaintiffs right to confrontation has not been
violated, and he is not entitled to an adverse witness instruction.
In the closing paragraph of his motion, Plaintiff requests that the Court grant his motion
for summary judgment filed on September 12, 2019. [Doc. 164, PagelD 1419], He states that his
motion was timely; however, it was not. Dipositive motions were due on August 1, 2019. [Doc.
126], The Court granted him an extension to respond to motions for summary judgment filed by
Defendants until September 24, 2019 but did not grant him an extension to file his own motion for

5

Case 2:15-cv-00116-JRG-CRW Document 166 Filed 02/12/20 Page 5 of 6 PagelD #: 1427

summary judgment. [Doc. 1126], Regardless, the Court construed Plaintiffs “motion for summary
judgment” as a timely response. [Doc. 156]. Plaintiff was not hindered by this characterization as
the “motion” was drafted like a response to Defendants’ motions for summary judgment.
IV.

Conclusion
For the above stated reasons, Plaintiff Vick’s Motion to Reconsider Docket Entry 158,

[Doc. 161], Motion to Reconsider Document Number 159, [Doc. 163], and Plaintiffs Motion for
Missing Witness Instruction for Defendant Riegal and Motion in Opposition to Defendant Riegal’s
Response, [Doc. 164] are DENIED. Summary judgment for Defendants Angel Combs and Leslie
Faret aka Pardue is GRANTED because of Plaintiff s lack of evidence to prove causation. Because
of the granting of summary judgment under Federal Rule of Civil Procedure 56(f), the Motion for Summary Judgment filed by Defendants Combs and Pardue is DENIED AS MOOT. [Doc. 127],
So ordered.
ENTER:
s/J. RONNIE GREER
UNITED STATES DISTRICT JUDGE

6

Case 2:15-cv-00116-JRG-CRW Document 166 Filed 02/12/20 Page 6 of 6 PagelD #: 1428

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TENNESSEE
AT GREENEVILLE
JASPER LEE VICK,
Plaintiff,
v.

)
)
)
)

)

C. BERNARD, et al.,
Defendants.

No. 2:15-CV-116

)
)
)
)

JUDGMENT
This action came before the Honorable J. Ronnie Greer, District Judge, presiding, and the
issues having been duly addressed and a decision having been duly rendered,
It is ORDERED and ADJUDGED that Plaintiff recover nothing of Defendants Clement
Bernard, Beth Jennings, Angel Combs, Leslie Faret aka Leslie Pardue, Stephanie Carmady,
Natalie Linkins, and that the action of Plaintiff against these Defendants be DISMISSED on the
merits, that is, with full prejudice,
Further, it is ORDERED and ADJUDGED that Plaintiff recover nothing of Defendant N.
Riegal, and that the action of Plaintiff against that Defendant to be DISMISSED without prejudice.

ENTERED AS A JUDGMENT:

s/J. RONNIE GREER
UNITED STATES DISTRICT JUDGE

s/ John L. Medearis
District Court Clerk
1
Case 2:15-cv-00116-JRG-CRW Document 167 Filed 02/12/20 Page 1 of 1 PagelD#:1429

Document: 14-2

Case: 20-5

Filed: 08/26/f

Page: 1

No. 20-5259

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JASPER LEE VICK,
Plaintiff-Appellant,
v.

R. SMITH, et al., in their Individual and Official
Capacities,
Defendants,
and
CLEMENT F. BERNARD, et al., in their
Individual and Official Capacities,
Defendants-Appellees.

(2 of 2)

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Aug 26, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: ROGERS, NALBANDIAN, and MURPHY, Circuit Judges.
Jasper Lee Vick, a pro se Tennessee prisoner, moves the court to reconsider its order of
June 25, 2020, denying his motion to proceed in forma pauperis on appeal.
Vick has not shown that the court overlooked or misapprehended a point of law or fact in
denying him leave to proceed in forma pauperis. See Fed. R. App. P. 40(a)(2).
Accordingly, we DENY his motion for reconsideration.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

